                                UNITED STATES DEPARTMENT OF EDUCATION 

                                     OFFICE OF INSPECTOR GENERAL 

                                                 61 Forsyth Street, Room 18T71 

                                                     Atlanta, Georgia 30303

                                        Telephone: (404) 562-6470 Fax: (404) 562-6509




                                                         January 18, 2007
                                                                                                     Control Number
                                                                                                     ED-OIG/A04G0003
Kathy Cox
State Superintendent of Schools
Georgia Department of Education
2066 Twin Towers East
Atlanta, GA 30334

Dear Ms. Cox:

This Final Audit Report, entitled Review of the Georgia Reading First Program, presents the
results of our audit. The purpose of the audit was to determine whether the Georgia Department
of Education (GDOE) (1) developed and used criteria for selecting the scientifically based
reading research (SBRR) programs in accordance with the law and regulations; and (2) approved
the local education agencies’ (LEA) applications in accordance with the law and regulations.
Our audit covered the period May 1, 2002, through September 30, 2005.



                                                      BACKGROUND



The Elementary and Secondary Education Act of 1965 (ESEA), as amended by the No Child
Left Behind Act of 2001, signed into law on January 8, 2002, established the Reading First
program. Reading First is a focused nationwide effort to enable all students to become
successful early readers. The program significantly increased the assistance to state educational
agencies (SEA) and LEAs to ensure that every student can read at grade level or above no later
than the end of grade three. Funds are dedicated to help states and local school districts
eliminate the reading deficit by establishing high-quality, comprehensive reading instruction in
kindergarten through grade three. The program is designed to select, implement, and provide
professional development for teachers using SBRR programs;1 and to ensure accountability
through ongoing, valid and reliable screening, diagnostic, and classroom-based assessment.
The total appropriations for the Reading First Program for fiscal years 2002, 2003, and 2004
were $900 million, $993.5 million, and $1.024 billion, respectively. SEAs can receive funds for
a six-year period. SEAs award subgrants to LEAs on the basis of a competitive process.

1
  Scientifically Based Reading Research is defined as research that applies rigorous, systematic, and objective procedures
to obtain valid knowledge relevant to reading development, reading instruction, and reading difficulties; and includes
research that employs systematic, empirical methods that draw on observation or experiment; involves rigorous data
analyses that are adequate to test the stated hypotheses and justify the general conclusions drawn; relies on measurements
or observational methods that provide valid data across evaluators and observers and across multiple measurements and
observations; and has been accepted by a peer-reviewed journal or approved by a panel of independent experts through a
comparably rigorous, objective, and scientific review.

             Our mission is to promote the efficiency, effectiveness, and integrity of the Department’s programs and operations.
Final Report
ED-OIG/A04G0003                                                                                Page 2 of 29


GDOE’s grant application was approved by the U.S. Department of Education (Department) in
September 2003. GDOE awarded the subgrants during two grant award periods (Cohorts).
Cohort 1 included fiscal years 2002, 2003, and 2004; and Cohort 2 included fiscal years 2005,
2006, and 2007. The Department’s Office of Elementary and Secondary Education (OESE),
awarded GDOE about $90.8 million in Reading First funds during the audit period. Of the $90.8
million awarded to GDOE during Cohort 1, $72.2 million was allocated to 38 LEAs and 97
schools in five rounds of LEA grant application reviews.

In developing its application, GDOE used the review of scientifically based research on reading
instruction contained in the National Reading Panel’s “Teaching Children to Read” report (2000)
as a guide for establishing its Reading First program. In its approved application, GDOE also
addressed the five essential components of an effective reading program and required LEAs and
schools to include these components in their reading programs. These five components are the
five components defining the term “essential components of reading instruction” in Section
1208(3) of the ESEA. During Cohort 1, GDOE required LEAs and schools to use A Consumer’s
Guide to Evaluating a Core Reading Program-Grades K-3: A Critical Elements Analysis
(Consumer’s Guide) to evaluate instructional materials and reading programs for SBRR.

GDOE’s approved Reading First application set forth the subgrant approval process. GDOE
used contracted grant reviewers to review and score LEA grant applications. However, GDOE
made the actual decision on whether or not to recommend the LEAs for funding. The reviewers
were tasked with determining whether applications addressed the criteria listed in scoring rubrics
designed by GDOE. LEAs were also given an extra 5 priority points if they were below the
poverty level for the state each year. After all applications were reviewed and scored, GDOE
recommended funding for LEAs and schools that received a total combined minimum passing
score of 60 points or greater. The State Board of Education approved GDOE’s recommendations
and the LEAs were awarded funding.



                                           AUDIT RESULTS



GDOE generally developed and used criteria for selecting the SBRR programs in accordance
with the law as interpreted by the Department.2 However, GDOE did not have formal written
policies and procedures in place for administering the program. As a result, GDOE did not
provide adequate guidance to ensure that its staff, subgrantees, and contracted grant reviewers
complied with applicable Reading First program law, regulations,3 and its approved grant
application requirements during the LEA grant application process. GDOE should develop and
follow policies and procedures to administer the program, and it should follow up during and
after the grant review processes to ensure program compliance.




2
  The Department's interpretation of SBRR is under review in another OIG audit conducted by our Region III office 

in Philadelphia. 

3
  Regarding regulations, we are referring to the Education Department General Administrative Regulations

(EDGAR) applicable to the Reading First program.

Final Report
ED-OIG/A04G0003                                                                                  Page 3 of 29

In its December 7, 2006, comments to the draft report, GDOE partially concurred with our
finding and concurred with our recommendation. The comments are summarized at the end of
the finding. The full text of GDOE’s comments on the draft report is included as an Attachment
to the report.

FINDING – GDOE Did Not Have Written Policies and Procedures and Did Not
Adequately Manage the LEA Grant Application Process

GDOE did not have written policies and procedures in place and did not adequately manage
several areas of the LEA grant application process. As a result of not having policies and
procedures, the following conditions occurred that affected the grant application process:

    • 	 GDOE added a requirement for LEAs’ selection of SBRR programs that was not 

        approved by the Department; 

    • 	 There was no assurance that grant reviewer qualifications met experience requirements;
    • 	 Contract requirements for grant reviewers were not enforced;
    • 	 Adequate guidance was not provided to grant reviewers and grant reviewers’ comments
        were not reviewed; and
    • 	 LEA private school consultation was not verified or documented.

We found that GDOE’s policies and procedures for implementing the Reading First program
were primarily based on the memory of the Reading First staff and were not always consistently
applied. In response to our request for internal policies and procedures, one of GDOE’s Reading
First program coordinators stated, “we have a variety of guidance documents, training materials,
and other documents that are a part of policies and procedures. They are not put together in one
formal policies and procedures manual.” The Reading First Program Manager left GDOE on
June 30, 2006, and one of the program coordinators that assisted with determining the LEAs and
schools to be funded also left. As a result, some Reading First program knowledge may have
been lost when key Reading First staff members left GDOE. Also, the potential exists for
inconsistencies in GDOE’s management of the application process and administration of the
program.

EDGAR, 34 C.F.R. § 76.7704 provides that "Each State shall have procedures for reviewing and
approving applications for subgrants and amendments to those applications, for providing
technical assistance, for evaluating projects, and for performing other administrative
responsibilities the State has determined are necessary to ensure compliance with applicable
statutes and regulations."

Furthermore, EDGAR, 34 C.F.R. § 80.40(a) states that grantees are responsible for managing the
day-to-day operations of grant and subgrant supported activities. Grantees must monitor grant
and subgrant supported activities to assure compliance with applicable Federal requirements and
that performance goals are being achieved. Grantee monitoring must cover each program,
function or activity.



4
 All regulatory citations are as of July 1, 2005, and the regulations in EDGAR applied during the entire audit
period.
Final Report
ED-OIG/A04G0003                                                                                 Page 4 of 29

GDOE stated in its approved grant application that it would manage and monitor the grant to
assure compliance with applicable federal requirements. However, without written policies and
procedures in place for performing administrative responsibilities, GDOE did not effectively
manage and monitor its Reading First program as evidenced by the issues discussed below.
GDOE needs to have written policies and procedures to ensure that its staff, subgrantees, and
contracted grant reviewers are fully knowledgeable of and comply with applicable Reading First
program law, regulations, and its approved grant application, while administering the program.

GDOE Added a Requirement for LEAs’ Selection of SBRR Programs that Was Not
Approved by the Department
The Department issued Guidance for the Reading First Program, April 2002, that states the SEA
must describe, in its application to the Department, its process and selection criteria and how it
will ensure that the instructional materials, programs, strategies and approaches are based on
SBRR. In its grant application, GDOE stated that LEAs and schools were required to use the
Consumer’s Guide to evaluate instructional materials and reading programs for SBRR.
Guidance provided by GDOE to the LEAs and grant reviewers stated that a reading program
could be used if it was evaluated using the Consumer’s Guide.

After the Department approved the state grant application, GDOE added a requirement for the
LEAs’ selection of SBRR programs. If an LEA chose to use a reading program that had not
been previously reviewed by the University of Oregon or the Eastern Regional Reading First
Technical Assistance Center (ERRFTAC),5 the vendor was required to submit the program for
review to the ERRFTAC before the LEA purchased the materials. GDOE required a vendor to
wait until after the ERRFTAC review was conducted before an LEA could use the vendor’s
program. The vendor subsequently filed a complaint about the ERRFTAC requirement and
GDOE removed the requirement. The ERRFTAC review requirement was in place for
approximately two months before GDOE removed the requirement. According to the vendor
that complained about the requirement, the ERRFTAC reviewed the vendor’s program for four
weeks before the requirement was removed. Once the ERRFTAC requirement was removed, the
vendor requested that the ERRFTAC review be halted. Subsequently, an LEA used the vendor’s
program.

GDOE issued a retraction letter dated May 11, 2004, stating that the ERRFTAC review of
reading materials was no longer required, but schools needed to "thoroughly evaluate the
materials for purchase internally to determine the materials’ usefulness to your comprehensive
reading programs within your Reading First schools. Further, it is important to ensure that the
materials you purchase are scientifically research based. Any materials that meet these
requirements are eligible for purchase with federal Reading First funds.”

GDOE’s Reading First Program Manager stated that he made the ERRFTAC review requirement
known to grant applicants verbally and that the review seemed to be a good idea at the time. The

5
  The U.S. Department of Education awarded a five-year contract to establish the National Center for Reading First
Technical Assistance (NCRFTA). The National Center consists of three regional centers located at The University
of Oregon, The University of Texas, and Florida State University (ERRFTAC). ERRFTAC provides services to 17
states and 2 territories that have received Reading First grants. ERRFTAC conducts scientifically based research in
reading; uses high quality research methods to generate specific knowledge to more effectively teach all children to
read well by third grade; disseminates research based information about reading assessment and instruction to
districts, schools, and teachers; and provides leadership to guide the implementation of Reading First Grants.
Final Report
ED-OIG/A04G0003                                                                 Page 5 of 29

idea was for the schools to complete their own review in order to compare it against a review
completed by someone else with more expertise. In response to the issue, GDOE officials stated,
“this was not an ‘additional requirement,’ but rather, a requirement that the Reading First
Program Manager thought was required under the federal grant.” This is an example where
formal written policies and procedures for administering the program could have prevented the
misunderstanding of program requirements by program managers. In addition, it created the
appearance of unfair treatment for some vendors to have to undergo additional requirements.

There Was No Assurance that Grant Reviewer Qualifications Met Experience
Requirements
GDOE did not ensure that its contracted grant reviewers met the qualifications listed in the
Request for Quotation (RFQ) used to hire the grant reviewers. In its approved grant application,
GDOE stated, “Reviewers of the Reading First applications for LEAs will be individuals
recognized within the national research community as experts in SBRR.” Our review of grant
reviewers’ qualifications identified that 16 of the 30 grant reviewers did not mention SBRR in
their resume. Contrary to its approved grant application, GDOE did not require the LEA grant
application reviewers to demonstrate their knowledge of SBRR in their resumes. By not
following this grant application requirement, GDOE did not follow prudent hiring practices to
ensure that it hired the most qualified grant reviewers to review LEA and school grant
applications.

EDGAR, 34 C.F.R. § 76.700, entitled "Compliance with statutes, regulations, State plan and
applications," states that "A State and a subgrantee shall comply with the State plan and
applicable statutes, regulations, and approved applications, and shall use Federal funds in
accordance with those statutes, regulations, plan, and applications."

GDOE’s RFQ requested each grant reviewer applicant to provide qualifications that would
demonstrate the reviewer’s experience, education, or abilities in reviewing Reading First grant
applications. We reviewed the information on qualifications provided in resumes (in response to
the RFQ) for the 30 grant reviewers that GDOE hired to review LEA and school grant
applications. We noted that grant reviewers did not provide the requested information:

    •   Two (7 percent) did not have their doctoral degree or were not candidates for the degree.
    •   Two (7 percent) did not mention elementary education experience.
    •   16 (53 percent) did not mention SBRR in their resume.
    •   23 (77 percent) did not list their experience using the Consumer's Guide in their resume.

The GDOE official responsible for overseeing the contracting of the grant reviewers stated that
GDOE did not have time to verify all of the qualifications of grant application reviewers. The
official stated GDOE only verified whether the grant reviewer applicants were employed as they
stated in their resumes. GDOE’s Reading First Program Manager also stated it was not
necessary to verify grant reviewer qualifications because GDOE knew many of the reviewers
and their reputations.

In regard to the RFQ, GDOE officials stated that the only “absolute” requirement in the RFQ
was that the grant application reviewers have a doctoral degree or at least be a doctoral
candidate. All other qualifications mentioned in the RFQ were desired, not required,
qualifications, and the candidates that had the most qualifications were chosen. However, as
Final Report
ED-OIG/A04G0003                                                                               Page 6 of 29

identified above, of the 30 grant reviewers contracted by GDOE, we found that two (7 percent)
of the 30 grant reviewers did not meet this “absolute” requirement. In addition, one of the
desired qualifications was experience using the Consumer’s Guide, but most grant reviewers did
not list any experience using the Consumer’s Guide in their resumes. We concluded that the
grant reviewer contract process was not carried out in a manner that would ensure that most grant
reviewers possessed desired qualifications to review LEA and school Reading First applications.
As a result, GDOE could not provide assurance that the best qualified grant reviewers or “experts
in SBRR” reviewed applications.

GDOE should have a written policy so that the Reading First staff performing the contracting
process will ensure that the best-qualified reviewers are hired. GDOE needs to use grant
reviewers that possess required and desired qualifications to help ensure that the LEAs and
schools’ plans for a reading program are being adequately reviewed in accordance with program
requirements.

Contract Requirements for Grant Reviewers Were Not Enforced
We identified a contracted grant reviewer who reviewed applications for LEAs and schools that
were using a reading program authored by the grant reviewer6. In his resume submitted to
GDOE, the grant reviewer indicated that he authored a reading program, but GDOE did not
ensure that the contracted grant reviewer recused himself from reviewing the applications of
LEAs that selected the reading program he authored. GDOE assigned him to review the
applications for LEAs and schools that used his program, as well as competing programs.

We reviewed the grant reviewer’s contract with GDOE and there was a conflict of interest
disclosure requirement in the contract that the reviewer recuse himself from reviewing grant
applications for LEAs using his program. We found no evidence that the contractor did so. The
contract’s conflict of interest requirement stated, "The Contractor agrees to recuse himself or
herself from evaluating a specific application in the event that the Contractor . . . has any
financial, business, or personal relationship with any of the applicants, and to immediately notify
the Department in the event of such circumstances . . . ."

The grant reviewer was one of five contracted grant reviewers on the team reviewing the LEAs’
applications for round one of the application reviews. The grant reviewer reviewed grant
applications for three LEAs that used his program. The three LEAs that used his program were
approved for funding. GDOE should have more closely reviewed the grant reviewer’s resume to
determine that the grant reviewer was the author of a reading program being used by its LEA
applicants, and should not have assigned the grant reviewer to review the three LEAs using his
program.

We consider a contracted grant reviewer reviewing the grant application for any LEA or school
using a reading program authored or coauthored by the grant reviewer to have a potential
financial relationship with the applicant, and therefore, a potential bias in reviewing the LEA or
school's application more favorably. The grant reviewer's involvement with authoring a reading
program gave the appearance of a potential conflict of interest. We also believe that the
appearance of a potential conflict of interest existed when this grant reviewer reviewed the
reading programs of his competitors. GDOE did not identify this potential conflict of interest
because it only verified where the grant reviewer applicants were employed.

6
    The program authored by the reviewer is Open Court and is a product of SRA/McGraw-Hill.
Final Report
ED-OIG/A04G0003                                                                  Page 7 of 29


As a prudent contracting practice, GDOE should have enforced its contract requirements and
ensured that the grant reviewer did not review grant applications for LEAs that used the grant
reviewer's authored reading program, as well as competing programs. GDOE needs to develop
and follow policies and procedures for contracting grant reviewers to ensure that prudent
contracting practices are followed and potential conflicts of interest are avoided.

Adequate Guidance Was Not Provided to Grant Reviewers and Grant Reviewers’
Comments Were Not Reviewed
GDOE did not provide adequate guidance for grant reviewers to follow in reviewing applications
and providing feedback to applicants. In addition, GDOE did not review the results of grant
reviewers’ comments to identify the causes for grants not meeting approval and to ensure that
grant reviewers were following instructions. In its approved grant application, GDOE stated
“Technical assistance will also be offered to help them (LEAs) develop a plan for implementing
a reading program that maintains the highest fidelity to SBRR. They will also be guided in the
evaluation and selection of supplemental and intervention programs that are consistent with the
core program as well as SBRR.”

GDOE officials initially told the reviewers they could give feedback on specific programs.
However, GDOE subsequently changed the instruction and asked the grant reviewers to
concentrate on reviewing what the LEA explained about using the program in its application. In
later rounds of grant reviews, GDOE officials told the reviewers not to comment on specific
programs to be used by LEAs. In certain instances, the grant reviewers did not provide sufficient
feedback for LEAs, or could not provide support for the feedback that was given. GDOE’s
contracted grant reviewers made feedback comments about whether certain programs were
SBRR, when GDOE instructed them to review the application based on the information
contained in the application. However, when asked whether reviewers were given authority to
review programs contained in LEAs’ applications, two GDOE Reading First staff members gave
us different answers. One of GDOE’s Reading First Coordinators stated that the grant reviewers
were given the authority to review the reading programs being used by the LEAs, while another
Reading First Coordinator stated grant reviewers were not given the authority to evaluate reading
programs.

We interviewed a grant reviewer who wrote a comment on an LEA’s application that indicated
the LEA's reading program was “not SBRR.” We asked him what he meant by "not SBRR" and
he stated that he was concerned about the program because of the comments made at the table by
other grant reviewers on his team, and he merely wrote the note “not SBRR.” He could not
provide us with any additional support for his comment. However, none of the other grant
reviewers interviewed on that review team acknowledged making such comments. GDOE
officials sent all notes and comments written by the grant reviewers to the LEAs to assist them in
making changes or corrections to the grant application package. Officials at the affected LEA
told us that the grant reviewer’s comment about its selected program caused them to change their
selection of a reading program.

In addition, GDOE provided the grant reviewers with the scoring rubrics to record scores and
issues for clarification, but did not give adequate guidance to ensure that the grant reviewers
recorded their comments directly on the scoring rubrics. Grant reviewers wrote comments
directly on the LEA application, as well as the scoring rubrics. GDOE sent the applications back
to the LEAs and did not maintain copies with the reviewers’ comments. Therefore, GDOE did
Final Report
ED-OIG/A04G0003                                                                              Page 8 of 29

not maintain complete support for the LEA grant funding decisions.7 GDOE maintained the
rubric scoring documents to support reviewer scores for approved LEA applications. GDOE did
not maintain the LEA and school grant applications containing grant reviewers’ evaluation
comments. GDOE staff stated that they did not intend to maintain the grant reviewers’
evaluation comments. All documentation supporting an award should be maintained for the
required time period. GDOE should have given clear and specific instructions to the grant
reviewers to ensure they recorded their comments on the scoring rubrics.

EDGAR, 34 C.F.R. § 80.42 and 20 U.S.C. § 1232(f), the Department’s General Provisions
Concerning Education Programs, apply to all financial and programmatic records, supporting
documents, statistical records, and other records of grantees or subgrantees and states that each
recipient of federal funds shall maintain records to facilitate an effective financial or
programmatic audit for which the funds are used. Also, according to the Georgia Secretary of
State's Georgia Archives division, state and local agencies are required to maintain federal grant
project files for five years after a final report is submitted or five years after the grant application
is denied.

Regarding the evaluation of grant reviewer comments, the Reading First Program Manager
stated that GDOE did not question grant reviewers about their application evaluation comments
because GDOE did not want any independence issue raised by an LEA. Furthermore, GDOE’s
Program Manager indicated to us that GDOE’s protocol was to not have any contact with the
reviewers about their comments. The Program Manager stated that GDOE wanted to avoid the
perception that help was provided to any LEA in evaluating the applications.

GDOE should have a formal mechanism for providing adequate guidance to grant reviewers and
for providing the grant reviewer feedback to LEAs. Seven LEAs’ applications were not
approved for funding during Cohort 1. One of these LEAs was the largest LEA in the state. If
GDOE had reviewed the results of the grant application reviews and reviewer comments, it may
have been able to identify the causes for LEAs not being approved and provide these LEAs with
timely guidance to help the LEAs address deficiencies in their applications. This technical
assistance would help ensure that LEAs are implementing a reading program that maintains the
highest fidelity to SBRR. Reviewing the results would also identify areas to improve the
efficiency of the application and funding process, and ensure that grant reviewers are following
instructions. This would have allowed the LEAs to resubmit their Reading First grant
applications for further consideration during a subsequent round within Cohort 1.

LEA Private School Consultation Was Not Verified or Documented
GDOE did not ensure that LEAs consulted with private schools to determine eligibility for
Reading First funds for Cohort 1. In GDOE's Cohort 2 LEA Subgrant Applications, GDOE
required LEAs to document contact and consultation with private schools regarding eligibility
for Reading First. The LEAs were also required to provide copies of letters sent to private
schools.



7
 We contacted the ten randomly selected LEAs plus one judgmentally selected LEA that received funding. Six
LEA officials indicated GDOE did not require them to maintain the documentation. Two LEAs could not recall
whether GDOE required them to retain the documents. Three LEAs stated GDOE specifically required them to
maintain the documents, but these three could not provide any evidence of the retention requirement. However, we
have no assurance that the other 27 LEAs that GDOE funded retained the documentation.
Final Report
ED-OIG/A04G0003                                                                   Page 9 of 29

The Georgia Department of Audits and Accounts (State Auditor) performed an OMB Circular A-
133 Single Audit for the year ending June 30, 2005. One of the State Auditor’s findings related
to the need for GDOE’s management to verify that LEAs conducted timely and meaningful
consultation with private school officials. GDOE concurred with the finding and stated, “The
DOE is in the process of developing program operations manuals, which among many topics will
address notification of private schools. The program manuals should be completed during fiscal
year 2006." Georgia’s fiscal year ended on June 30, but we confirmed with GDOE officials that
they had not implemented formal policies and procedures for the Reading First program.

We also found that GDOE did not include private school consultation as a part of the scoring
rubric for the review of the LEA and school applications. Of the 10 randomly selected grant
applications reviewed, only one discussed private school participation. Of the 38 funded LEAs
in Cohort 1, only two had private schools participating in GDOE's Reading First program.

According to 20 U.S.C. § 7881, SEAs and LEAs are required to “after timely and meaningful
consultation with appropriate private school officials provide to those children and their teachers
or other educational personnel, on an equitable basis, special educational services or other
benefits that address their needs under the program.” This is also required in Section 9501(a)(1)
of the ESEA.

Because consultation with appropriate private school officials is a federal requirement, GDOE
needs to develop written policies and procedures, which will address the private school
consultation requirement to ensure the requirement is adequately reviewed and documented in
approved applications. This would help ensure GDOE confirms that private schools are being
properly consulted and have the opportunity to participate in the program. GDOE also needs to
ensure that its staff, subgrantees, and contracted grant reviewers follow policies and procedures
and comply with the applicable regulations covering the private school consultation requirement.

Recommendation:

We recommend that the Assistant Secretary for the Office of Elementary and Secondary
Education require GDOE to ─

   1.1 	   Develop written policies and procedures for its LEA and school grant application
           process to ensure it follows state and federal Reading First law, regulations, and
           guidelines in administering the Reading First grant application process and program.
           At a minimum, the policies and procedures should include requirements that address:

               • 	 Following the requirements in its approved state grant application to ensure
                   LEAs properly select and use SBRR reading programs,
               • 	 Verifying its contracted grant reviewers meet the qualifications contained in
                   its RFQ for hiring grant reviewers, and meet the experience requirements
                   contained in its federally approved grant application when hiring the
                   reviewers,
               • 	 Verifying that contracted grant reviewers do not have potential conflicts of
                   interest prior to allowing grant reviewers to perform services,
               • 	 Providing adequate guidance for grant reviewers to follow for reviewing
                   applications and recording official comments,
Final Report
ED-OIG/A04G0003                                                                 Page 10 of 29

              • 	 Providing clear guidance to LEAs to help them address and resolve
                  deficiencies in their grant application being resubmitted for review,
              • 	 Ensuring supporting documentation for the grant application approval process
                  is maintained as required under 34 C.F.R § 80.42, and
              • 	 Ensuring that the private school consultation requirement is adequately
                  implemented and documented in approved grant applications.

GDOE Comments

GDOE did not agree with all parts of our finding, but concurred with the recommendation, as
discussed below:

   • 	 GDOE concurred that it added a requirement for LEAs’ selection of SBRR programs that
       was not approved by the Department.

   • 	 GDOE did not concur that there was no assurance that grant reviewer qualifications met
       experience requirements.

              GDOE stated that grant reviewer qualifications, as submitted in their curricula
              vitae, were reviewed by Reading First program personnel. Curricula vitae
              packages that accompanied the signed request for quote were extensive. While it
              would have been optimum for each reviewer to meet each and every one of the
              qualifications listed on the RFQ, GDOE did not require such on the RFQ.
              Furthermore, very few individuals would have qualified, and GDOE would not
              have been able to develop teams comprised of varying experts in reading and
              literacy instruction with different strategies so each grant could receive a
              complete review.

              GDOE also stated that while many of the criteria were not explicitly stated in the
              curricula vitae, a thorough review of the applicants’ experience and professional
              work history indicated the level of experience with SBRR and with the
              Consumer’s Guide.

              GDOE further stated that no LEA was required to make changes to curricular
              materials based on the comments of grant readers, but certainly it would have
              been appropriate in certain instances for LEAs to make changes based on the
              comments of the grant reviewers.

   • 	 GDOE did not concur that the contract requirements for grant reviewers were not 

       enforced. 


              GDOE stated that there was a conflict of interest disclosure requirement in each
              grant reviewer’s contract with GDOE. This contract language required the
              reviewer to disclose to GDOE any conflict of interest. As GDOE purposefully
              did not review the grants prior to assigning them to reviewers, it was impossible
              for GDOE staff to screen the applications to ensure that there were no conflicts of
              interest. It was, therefore, the reviewer’s duty and responsibility pursuant to the
              contract to immediately notify GDOE staff when and if a conflict arose and to
Final Report
ED-OIG/A04G0003                                                                 Page 11 of 29

              recuse him- or herself. If so alerted, GDOE staff would have immediately
              reassigned the reviewer. GDOE further stated that it shows that the burden of
              disclosure should rest solely upon the reviewer, because the reviewer is in the best
              position to identify a possible conflict of interest.

   • 	 GDOE did not concur that the guidance it provided to grant reviewers was inadequate
       and that grant reviewers’ comments were not reviewed.

              GDOE stated that comments of grant reviewers were never meant to be reviewed,
              pursuant to the independent, impartial grant review process proposed by GDOE
              and approved by the Department in the Georgia Reading First grant. Official
              grant reviewer score sheets were maintained on all LEAs and schools. GDOE
              further stated that this condition seems to be based on grant reviewer comments
              that may have been written on copies of the actual applications that were given to
              grant reviewers to read. These were not the official grant reviewer score sheets
              and the Reading First department did not review these reviewer comments prior to
              sending the grant applications back to the systems. Initially, personnel in the
              Reading First unit did not instruct the grant reviewers to refrain from writing
              comments on their copies of the actual grant applications while they were
              reviewing the applications. Accordingly, certain grant reviewers may have made
              notes in the margins or elsewhere on the grant applications while reading them.
              Furthermore, Reading First personnel did not initially inform grant reviewers that
              all grant applications would be mailed back to the LEAs and schools.

              GDOE also stated that once the Reading First staff became aware that reviewers
              were making such comments directly on the applications, the staff notified
              reviewers not to do so.

   •   GDOE concurred that LEA private school consultation was not verified or documented.

OIG Response

We did not change the finding or recommendation in response to GDOE’s comments.
Regarding GDOE’s response to the draft audit report, we have the following comments:

   • 	 There Was No Assurance that Grant Reviewer Qualifications Met Experience 

       Requirements


              While we understand that some of the RFQ qualifications were preferable, at least
              one was required. Since GDOE did not expect the reviewers to meet the
              explicitly required qualification(s), the RFQ should have been modified to better
              match the expected qualifications. Also, GDOE’s ability to review the curricula
              vitae for the desired professional qualifications mentioned in the RFQ may have
              been improved if the desired qualifications were clearly stated in the curricula
              vitae.

              Although an LEA may not have been required to make changes based on reviewer
              comments, the LEA would likely give considerable weight to comments from
Final Report
ED-OIG/A04G0003                                                               Page 12 of 29

            reviewers it thought met the qualifications set forth in the RFQ. If the LEAs were
            not required to make changes based on reviewer comments, then using contracted
            grant reviewers for the application review process may not have been necessary
            since the changes appear to be optional.

  • 	 Contract Requirements for Grant Reviewers Were Not Enforced

            GDOE is responsible for the administration of the Reading First grant. GDOE
            cannot assign accountability for properly administering the grant to its contracted
            grant reviewers. In its response to the previous condition, GDOE stated that grant
            reviewer qualifications, as submitted in the curricula vitae, were reviewed by
            Reading First program personnel. Therefore, GDOE should have been aware that
            the grant reviewer authoring a reading program stated that he was an author of the
            program in his vitae. GDOE should have noted that the author should not have
            been assigned to review any applications for LEAs using the program he
            authored. GDOE should also have noted the potential conflict of interest when
            the grant reviewer reviewed the reading programs of his competitors.

            The grant reviewer that authored the reading program reviewed applications for
            10 LEAs. It should not have been impossible for GDOE to examine the grant
            applications for these 10 LEAs. Furthermore, the LEA grant applications have a
            standard format and discuss the reading programs used by the LEAs in a specific
            part of the application, so it should not have been difficult for GDOE to determine
            whether the LEAs were using the reading program authored by the reviewer.

  • 	 Adequate Guidance Was Not Provided to Grant Reviewers and Grant Reviewers’
      Comments Were Not Reviewed

            We reiterate that GDOE is responsible for the administration of the Reading First
            grant. While we are aware of GDOE’s desire to have an independent and
            impartial grant review process, the grant review process may have been improved
            had GDOE reviewed the comments to identify the causes for grants not meeting
            approval and to ensure that grant reviewers were following instructions. GDOE
            did not have a control in place to ensure that all grant reviewer comments were
            included on the formal scoring rubrics so that comments could be adequately
            addressed. This may have been prevented if GDOE had formal written
            procedures for the grant reviewers to refer to.

            Although the comments made on the copies of the grant applications sent back to
            the LEAs were not considered by GDOE to be official comments, the LEAs may
            have considered them to be official comments. By using only the scoring rubrics,
            and not the copies of the applications with grant reviewer comments, GDOE staff
            were not made aware of all grant reviewer comments when providing technical
            assistance. Technical assistance by GDOE staff would have been enhanced if
            they reviewed all comments returned to the LEAs. By reviewing these comments
            to the LEAs, the staff would be familiar with the grant reviewers’ noted
            deficiencies and could offer timely assistance to the LEAs. This might help the
            LEAs to more adequately address required grant application improvements and
Final Report
ED-OIG/A04G0003                                                                   Page 13 of 29

               help LEAs avoid having to prepare multiple resubmissions to obtain approval for
               funding.



                                    OTHER MATTERS



In determining the reasons LEAs were not funded for Cohort 1, we identified one LEA that was
not funded in Cohort 1, but was funded for Cohort 2. This LEA received scores of zero on its
grant applications for Cohort 1 based in part on the fact that it did not include information about
its use of the Consumer's Guide. The LEA decided to reapply for funding in Cohort 2 and was
funded. Our limited review of the Cohort 2 application showed that the LEA did not complete
its own evaluation of core programs using the Consumer's Guide, but was nonetheless approved
for funding. The LEA used the Consumer's Guide evaluations performed by other organizations.

Although we did not cover Cohort 2 in our audit period, GDOE did not change its requirement
that LEAs follow the state's approved grant application by performing their own Consumer’s
Guide evaluation of reading programs they plan to use. According to GDOE's approved grant
application, GDOE stated it would use the Consumer's Guide to ensure alignment to SBRR.
GDOE officials stated that GDOE required LEAs to use the Consumer's Guide to select a SBRR
program. As recommended above, GDOE Reading First officials need to ensure that they
continue to monitor and follow the requirements in their approved state grant application.



                 OBJECTIVES, SCOPE, AND METHODOLOGY



The objectives of our audit were to determine whether GDOE (1) developed and used criteria for
selecting the SBRR programs in accordance with the law and regulations and (2) approved the
LEAs’ applications in accordance with the law and regulations.

To achieve our objectives, we reviewed and tested GDOE’s implementation of its approved grant
application. Specifically, we examined:

   • 	 GDOE’s Reading First application for its process of approving LEAs for funding;
   • 	 A Consumer’s Guide to Evaluating a Core Reading Program Grades K-3: A Critical
       Elements Analysis, by Drs. D. Simmons and E. Kame’enui, along with other SBRR
       related documentation;
   • 	 ESEA’s Reading First requirements, regulations, and Department guidance;
   • 	 GDOE’s guidance provided to LEAs and grant reviewers;
   • 	 LEA subgrant applications;
   • 	 subgrant application scoring sheets;
   • 	 grant reviewer comments and resumes;
   • 	 a monitoring report generated by the Department contractor (American Institutes For
       Research); and
Final Report
ED-OIG/A04G0003                                                                 Page 14 of 29

   • 	 the State of Georgia Single Audit reports for the fiscal years ending June 30, 2004, and
       June 30, 2005.

We interviewed officials from GDOE, 20 LEAs, four schools, and complainants. We also
interviewed nine Reading First contracted grant reviewers that participated in GDOE’s subgrant
award process.

Our audit period was May 1, 2002, through September 30, 2005, and focused primarily on the
Cohort 1 grant application process. Cohort 1 includes the first three of six years of possible
funding. Any information concerning Cohort 2 is included in the LEA private school
consultation issue and in the OTHER MATTERS section of this report.

To review grant applications and determine if GDOE awarded subgrants in accordance with the
process identified in GDOE’s approved application and the ESEA, we judgmentally selected one
LEA that was mentioned in a complaint and we randomly selected 10 of the remaining 37 funded
LEAs. In addition, we judgmentally selected the largest of the seven LEAs that were not funded.
We also reviewed the scoring rubrics for all 38 funded LEAs and a school within each funded
LEA. To confirm whether the final passing scores for funded LEAs and schools were calculated
correctly by GDOE, we selected all LEAs that were scored 65 or less by the expert review teams.
In addition, we made site visits to two of the LEAs.

We gained an understanding of GDOE’s system of internal control over awarding subgrants, and
we found weaknesses in GDOE’s system of internal control. These weaknesses are related to
GDOE’s process for awarding subgrants to LEAs. These weaknesses are discussed in the
AUDIT RESULTS section of this report.

We performed our audit work at GDOE’s offices in Atlanta, Georgia, two LEAs’ offices (Atlanta
Public Schools and Butts County Board of Education), the complainants’ locations, and in our
Atlanta offices from October, 2005 through September, 2006. We discussed the results of our
audit with GDOE officials during an interim briefing on June 27, 2006. We performed our audit
in accordance with generally accepted government auditing standards appropriate to the scope of
the review described above.
Final Report
ED-OIG/A04G0003                                                                   Page 15 of 29




                            ADMINISTRATIVE MATTERS



Statements that managerial practices need improvements, as well as other conclusions and
recommendations in this report, represent the opinions of the Office of Inspector General.
Determinations of corrective action to be taken will be made by the appropriate Department of
Education officials.

If you have any additional comments or information that you believe may have a bearing on the
resolution of this audit, you should send them directly to the following Education Department
official, who will consider them before taking final Departmental action on this audit:

                              Raymond Simon
                              Deputy Secretary
                              U.S. Department of Education
                              Office of Elementary and Secondary Education
                              400 Maryland Avenue, SW
                              Washington, DC 20202

It is the policy of the U. S. Department of Education to expedite the resolution of audits by
initiating timely action on the findings and recommendations contained therein. Therefore,
receipt of your comments within 30 days would be appreciated.

In accordance with the Freedom of Information Act (5 U.S.C. §552), reports issued by the Office
of Inspector General are available to members of the press and general public to the extent
information contained therein is not subject to exemptions in the Act.

We appreciate the cooperation and assistance extended by your staff during the audit. If you
have any questions, please call me at 312-730-1620.

                                             Sincerely,

                                             /s/

                                             Richard J. Dowd
                                             Regional Inspector General for Audit
                                             Chicago/Kansas City Audit Region

Attachment
     ·              'il~

GEORGI
 DEPARTMENT OF

EDUCATION 	                                                                            Office of the State Superintendent of Schools

Kathy Cox, State Superintendent of Schools

                                                               December 7, 2006

                    VIA U.S. MAIL AND ELECTRONIC MAIL

                   Mr. Richard J. Dowd 

                   Regional Inspector General for Audit 

                   U.S. Department of Education 

                   61 Forsyth Street, Room 18T71 

                   Atlanta, Georgia 30303 


                               RE:           Draft Audit Report, Control No. ED-OIGIA04G0003

                   Dear Mr. Dowd:

                   Please find enclosed the Georgia Department of Education's response to the Draft Audit
                   Report: Review ofthe Georgia Reading First Program. As you will see in the enclosure,
                   the Department agreed in part and disagreed in part with the overall finding of the Draft
                   Audit Report. Since it was impossible for the Department to either concur or not concur
                   with the overall finding, the enclosed response addresses each condition of the overall
                   finding individually, concurring and not concurring as appropriate.

                   Thank you this opportunity to respond to the Draft Audit Report. If you have any
                   questions or concerns, please do not hesitate to contact Department staff.

                   Sincerely 'yours,



                   Kathy Cox

                   KCljlh
                   cc: 	  Julie Morrill 

                          Jennifer L. Hackemeyer, Esq. 

                          Julie E. Lewis, Esq. 





 ---------------------------------~~~                                                                          .......-.•....
                        2066 Twin Towers East· Atlanta, GA 30334· (404) 656-2598· Fax (404) 651-8737· www.gadoe.org

                                                             An Equal Opportunity Employer
December 6, 2006


     Georgia Department of Education Response to United States Department of 

      Education Office of Inspector General Draft Report, ED-OIG/A04G003· 



   FINDING: GaDOE Did Not Have Written Policies and Procedures and Did Not
   Adequately Manage the LEA Grant Application Process.

   It is not possible for the Georgia Department of Education ("GaDOE") to either
   concur or not concur with this overall finding. While GaDOE agrees that it did not
   have written policies and procedures in place, as noted by the first clause in the
   sentence, GaDOE disagrees that it did not adequately manage the LEA grant
   application process as stated in the finding's second clause. Accordingly, GaDOE
   has concurred or not concurred with each individual "condition" as identified under
   the overall finding in the Draft Audit Report.

   A. 	 Audit Results: Finding and Conditions

   1. 	 GaDOE added a requirement for LEAs' selection of SBRR programs that was not
        approved by the Department.

      The GaDOE concurs with this condition. However, this advice was in place for
      less than three months for a grant that has been in place for over three years.
      Corrective action was taken in May, 2004 to remedy this condition. See
      Attachment A.

   2. 	 There was no assurance that grant reviewer qualifications met experience
        requirements.

      The GaDOE does not concur with this condition.

      The Georgia Reading First grant, approved by the United States Department of
      Education, did not contain language stating that the verification of reviewers'
      qualifications would occur. Grant reviewers were procured through the Georgia
      Department of Administrative Services (DOAS) via a Request for Quotations
      (RFQ) (see Attachment B). Forty-five potential reviewers responded to the
      request. The curricula vitae of the forty-five reviewers were collected and
      carefully reviewed. They were also used to prepare the scoring rubric used for
      selecting the final reviewers. Not only was verification of qualifications not
      required, but also failing to verify every qualification listed on every curriculum
      vita did not harm a single beneficiary or potential beneficiary ofthe grant.
      GaDOE is unaware of any allegation that the credentials of any grant reviewer
      were fraudulent. Finally, the time associated with verifying each and every
      qualification for each and every potential grant reviewer was neither warranted,
      required nor feasible.




                                                                                            1
December 6, 2006


      Grant reviewer qualifications, as submitted in their curricula vitae, were reviewed
      by Reading First program personnel. Curricula vitae packages that accompanied
      the signed request for quote were extensive. While it would have been optimum
      for each reviewer to meet each and every one ofthe qualifications listed on the
      RFQ, GaDOE did not require as such on the RFQ (see Attachment B) ..
      Furthermore, very few individuals would have qualified, and we would not have
      been able to develop teams comprised of varying experts in reading and literacy
      instruction with different strategies so each grant could receive a complete review.
      GaDOE listed all of the credentials and then rank ordered the reviewers in order
      to select the most qualified reviewers. Of the two individuals who did not have
      doctoral degrees, ·one was a Reading First Director from another state who met all
      other requirements; the other was an educator who is highly respected in this state
      as knowledgeable in all areas of reading research, the Reading First statute, using
      the Consumer's Guide and SBRR. The latter was selected because one of those
      who had originally accepted dropped out at the last minute such that the entire
      review process would have been jeopardized ifthere were not equal numbers of .
      team members.

       In order for grants to receive a non-biased review, it was important that they be
       read by a panel of outside reviewers. While many of the criteria were not
       explicitly stated in the curricula vitae, a thorough review of the applicants'
       experience and professional work history indicated the level of experience with
       SBRR and with the Consumer's Guide. The report cites two of the reviewers for
       not having experience in elementary education. However, one of these applicants,
       who has received her doctorate in special education, has conducted three reading
       projects forK-l teachers, has developed linguistics-skills training programs, and
       has conducted a course on reading for beginning readers with disabilities. She
       also has taught elementary reading methods courses. The other reviewer cited as 

       lacking elementary experience has a doctorate in Literacy Education that includes 

     . elementary coursework. In order to balance the team, reviewers appearing to lack 

       knowledge in a specific area were placed in a group with someone whose
       background included that skill.

      All reviewers received six hours of training prior to beginning to work with their
      teams to score grants. They participated in an exercise in which they read and
      scored a mock grant and then had a discussion about the scoring process to
      anticipate as many potential questions as possible. During the entire Grant
      Review session, GaDOE Reading First staff was on hand to answer questions.

      GaDOE offered contracts to grant reviewers with extensive backgrounds and
      expertise in reading and literacy instruction and education based on their national
      reputations and resumes. No LEA was required to make changes to curricular
      materials based on the comments of grant readers, but certainly it would have
      been appropriate in certain instances for LEAs to make changes based on the
      comments of the grant reviewers. Numerous opportunities existed for LEA
      personnel to interact with GaDOE Reading First personnel to confer about grant



                                                                                           2
December 6, 2006


      reviewers' comments. GaDOE's contract and selection process ensured that the
      grant reviewers selected were the most qualified to review LEA and school
      Reading First applications.

   3. 	 Contract requirements for grant reviewers were not enforced.

      The GaDOE does not concur with this condition.

      There was a conflict of interest disclosure requirement in each grant reviewer's
      contract wIth GaDOE. This contract language required the reviewer to disclose to
      GaDOE any conflict of interest. As GaDOE purposefully did not review the
      grants prior to assigning them to reviewers, it was impossible for GaDOE staff to
      screen the applications to ensure that there were no conflicts of interest. It was,
      therefore, the reviewer's duty and responsibility pursuant to the contract to
      immediately notify GaDOE staff when and if a conflict arose and to recuse him­
      or herself. If so alerted, GaDOE staff would have immediately reassigned the
      reVIewer.

      GaDOE shows that the burden of disclosure should rest solely upon the reviewer,
      because the reviewer is in the best position to identify a possible conflict of
      interest.


   4. 	 Adequate Guidance Was Not Provided to Grant Reviewers and Grant Reviewers'
        Comments Were Not Reviewed.

      The GaDOE does not concur with this condition.

      Adequate guidance was provided to grant reviewers. Comments of grant
      reviewers were never meant to be reviewed, pursuant to the independent,
      impartial grant review process proposed by GaDOE and approved by the United
      States Department of Education in the Georgia Reading First grant. Official grant
      reviewer score sheets were maintained on all LEAs and schools. GaDOE
      maintained grant reviewer comments in the manner in which it stated it would and
      in conformance with the training it provided.


      In addition to participating in reading and scoring a mock grant, reviewers
      received additional training by GaDOE staff and Southwest Educational
      Development Laboratory. During this time, reviewers had an opportunity to ask
      questions, obtain clarification and seek guidance from GaDOE staff. During the
      grant review process, a GaDOE staff member was available to work with team
      members to answer clarifying questions. GaDOE could not answer specific
      questions relating to the quality,· complexity or level of completeness an LEA
      provided to a specific grant question. To do so would have been in direct conflict
      with the concept of an impartial, externally-reviewed competition.



                                                                                       3
December 6, 2006



      This condition seems to be based on grant reviewer comments that may have .been
      written on copies of the actual applications that were given to grant reviewers to
      read. These were not the official grant reviewer score sheets and the Reading
      First department did not review these reviewer comments prior to sending the
      grant applications back to the systems. Initially, personnel in the Reading First
      unit did not instruct the grant reviewers to refrain from writing comments on their
      copies of the actual grant applications while they were reviewing the applications.
      Accordingly, certain grant reviewers may have made notes in the margins or
      elsewhere on the grant applications while reading them. Furthermore, Reading
      First personnel did not initially inform grant reviewers that all grant applications
      would be mailed back to the LEAs and schools.


      Once the Reading First staff became aware that reviewers were making such
      comments directly on the applications, the staffnotified reviewers not to do so.
      Even if Reading First staff had reviewed the comments, it would have been
      inappropriate and incongruous with our independent grant process to review such
      comments, as the process was designed to avoid even the appearance ofbias or
      impropriety. The official grant reviewer comments were intended to assist LEA's
      in making their grant applications stronger and clearer. As the grant application is
      intended to be an LEA's implementation plan, it was pertinent that each question
      be answered with clarity. If the reviewer required more information or the answer
      was unclear, it is doubtful that the LEA could implement the plan effectively.


      Each system that was not funded during the initial round was assigned a Reading
      First program specialist to provide technical assistance to further develop their
      grants. During this time, while working with system writing teams, comments
      could be discussed. Reading First staff was directed to answer questions and
      provide assistance, but not to rewrite answers on the applications for LEA's or
      schools.

   5. LEA Private School Consultation Was Not Verified or Documented


      The GaDOE concurs with this condition. As a result of a state audit in 2005,
      GaDOE revised our application for cohort 2 and added information in the grant
      application. The changes in the grant application process that were instituted for
      the second cohort of applicants for Reading First funding required applicants to
      provide evidence of the private schools with which they made contact within the
      grant application (see Attachment C).


  B. Recommendation



                                                                                           4
December 6, 2006


      GaDOE concurs with the recommendation to develop written policies and
      procedures. In the event that GaDOE receives a new Reading First grant, this
      recommendation will be followed.


      Further, GaDOE is currently in the process of developing written policies and
      procedures that all program managers can use in administering federal and state
      grants. If Georgia receives another reading grant, GaDOE plans to tailor those
      policies and procedures and implemented them in accordance with the
      recommenaation contained in the audit report.




                                                                                        5
Attachment A 

                                              Georgia Department of Education
                                            Office of the State Superintendent of Schools
                                                         Twin Towers East
                                                 Atlanta, Georgia 30334-5001
                                                 (404) 656-2800 Fax (404) 651-8737
                                                         www.doe.kI2.ga.us
Kathy Cox                                          (404) 657-8318 FAX (404) 651-8582
State Superintendent 0/ Schools

                                                            May 11,2004


              Shirley Thomas
              Sylvester Road Elementary
              103 Eldridge Street
              Sylvester, GA 31791

              Dear Sir or Madame:

              Greetings! I hope things are going well for you as you begin the journey of implementation of
              Reading First in Georgia. Things have been moving at a furious pace here at the Department of
              Education. The purpose of this letter is to provide you with some information regarding the selection
              ofmaterials to purchase with your federal Reading First grant money.

              It has come to my attention that some schools may want to purchase materials that have not been
              reviewed at the Oregon or Eastern Regional Reading First Technical Assistance Center's (ERRFTAC)
              web sites. While I had previously stated that these reviews must be read and considered before
              materials were purchased, this is not necessary. It is, however, necessary for you to thoroughly
              evaluate the materials for purchase internally to determine the materials' usefulness to your
              comprehensive reading programs within your Reading First schools. Further, it is important to ensure
              that the materials you purchase are scientifically research based.

              Sincerely,



              Kenneth M. Proctor, Ed.D.
              Reading First Program Manager

              cc: 	     Kathy Cox
                        Stuart Bennett
                        Dr. Ida H. Love
                        Dr. Eloise Barron
                        Alice Smith
                        Judson Turner




                                                    An Equal Opportunity Employer
,Attachment B 

 RETURN TO:                                                           Request for Quotation
  Df)partment of Education
• Reading                                                                                     Request For Quote 10.         Date        Bid Closing DatBffune     Page
  Suite 1758, Twin Towers East                                                                414Q0-024.0000000            10l30l2003     11/1410304:45:00          1
  205 Jessie Hill Jr. Drive SE                                                                Buyer                                .               ~erPhone
  Atlanta, GA 30334                                                                           Davlcl L. Childers                                   404/657-2195

                    Vendor: RFQ..SLANK
                    .NAME__________________- -­                                                   Ship To: Department of educatiOn
                                                                                                           Reading
                    ADDRESS:_'_ _""""---.;........_"""-_ _                         
                       Suite 1758, Twin Towers East
                                                                                                           205 J811S1e HID Jr. Drive SE
                                                                                                           Atlanta, GA 30334
                    E·MAIL:,_ _ _ _ _-,..~=___...-___ 

                    FEll or GA VNDR 10 _ _ _- ' 


   Une   Item         DescrIpIIon                            Quantity    UOM     Brand & Model     Unit Price       Need                                            Daid
 The State of Georgia Standard Contract Terms and Conditions and the Request for Quote Instructions and Additional Terms &
 Conditions are applicable to this Request for Quotation. They can be viewed at www.doas.state.ga.us Select Procurement,
 then Vendor Guides, then Terms & Conditions.
                                                              TO BE COMPLETED BY VENDOR
  1. _ __
                       .DELIVERY WILL BE MADE IN THIS NUMBER 011 CALBHDlIR DAYS AFTER IUICBIPT OF ORDER 

  2 ••       .",_ _ _--'DAY8 CASH DISCOUNT. PAntBNT TBRMS ARB NBT 30 DAYS 

  3.        _ _ _...)110 BID FOR THIS ~ICITATION. PLBASB RBTAIH ON BID LIST
  4. _ _ _ _ _ _ _ _ _ _ _,PIIONE ,NUMBBR          _____________                     NUMBER              ~FAX




                             __...._ _ _ _ _ _ _ _ _ _ _ _ _ _   ___        __...._______   ___                                        ________
  5.110 BID
                       ~
                           E
                               A
                                   S
                                       O
                                           N
                                                                                    ~
                                                                                                                       ~
                                                                                                                                                    ~
                                                                                                                                                        -
   >>>>>>>>>>>>>THE FOlLOWING STATEMENT MUST BE SIGNED PRIOR TO SUBMISSION FOR 810«««««<<< 

   »»>>>>>>>>>>>FAILURE TO SIGN THIS STATEMENT WIll. RENDER THIS BID INVALlD«««««««« 


 "1 CERTIFY THAT THIS BID IS MADB WITHOUT PRIOR. I1HPBRSTANDING, AI1RBBIIENT, OR COJINECTIOH WITH ANY COHPORATION, FIRM OR PBRSON
 SUBMITTING A BID I10R TIl:&: SAME MATKRIALs, SUPPLIES, OR EQUIPMBIl'l', lIND IS IN ALL RBSPBCTS. FAIR. lIND WmIOUT COLLlf'ION OR 11RAUD.
 I ONDBRSTAND THAT COLLUSIVE BIDDING IS A VIOLATION OF STATB AJID I1BDBRAL LMf AND CAN IUlSULT IN FINES, PRISON SKllTBNCBS,
 AND CIVIL IWfAGK AWARDS. I AGRBE TO ABIDE BY ALL CONDITIONS OF THIS BID, MID CERTIFY THAT I AM A1l'rI*>RIZBD TO SIGN THIS
 BID I10R THE BIDDER, (O.C.G.A.SO-S-67). I                  FURTHER   CBRTIFY THAT 'l'HB PROVISIONS OF THE OFFlCAL CODE OF GEORGIA lINNOTATBD
 45-10-21 B'1'. SEQ. HAW NOT lIND WILL NOT BB VIOLATBD IN ANY RBSPECT.·


  "THE VIINOOR ALSO CBRTIFIBS THAT THE VEHDOR lIND ITS LOBBYISTS RAVE CDMPLIBD WITH THB LOBBYIST RBGIS'l!RATION J!EQUIRBHBNTS IN
 ACCORDAJICB WITH THE GEORGIA VENDOR MANUAL. Q

                                                                                                                       DATE: __________________ 

  AUTHORIZED SIGNATURE 


                                                                                                                   TOTAL BIO.: _ _ _ _ _ _ _ _ _ __
  NAME (TYPED OR I1ltINTED)


 Ca~efully   read the attached instructiona, terms and conditions. Fail=e to adhere to them may                               ~eault    in rejection of bid. All
 b:Lda must be typewr:Ltten or printed. If the original bid doc:ument 1e not used. all reference lines must be maintained.
 ._----_.,---------                                                                                                            - - - - - - - _ ..-----­
   Contact Name: Beth Shpigel: Fax: 404.657.5992:              emaft - bkyIe@doe.k12.ga.1IS
           ·91838                  Grane       Readers                                   1.0000     BA                                                          01/22/2504


                                   Muse be available to work January 22-25.1 2004
                                       Reader's Requirements (20-25)
                                       Doctorate or Doctorial CancUdate in Reading, Language A:rte. Educationsl Psychology. Linguistics. or
                                   Speech
                                    o Preferably         ~eeearch   one facility
                                       o Background in Blementary Education

   This is NOT AN ORDER All returned quotes and related documents must be ldenUfiect with our request for Quote Number.
 RETURN TO:                                             Request for Quotation
  Department of Education
. Reading                                                                            Request For Quote Iii      oatS         Bid ClosIng DatelTme        Page
 Suite 1758, Twin Towers East                                                        41400-024-0000000330     10l30l2003       11114103 04:45:00           2
 205 Jessie Hill Jr. Drive SE                                                        Buyer                                                Buyer Phone
 Atlanta, GA 30334                                                                   David L. Chlders                                     4041657-2195

                 Vendor: RFQ_BLANK                                                     Ship To: Department of Education
                  .NAME~___________________
                                                                                                 Reading
                 ADDRESS:_ _ _ _ _ _ _ _ _ __
                                                                                                 Suite 1758. TWin Towers East
                                                                                                 205 Jessle HI Jr. Drive SE
                                                                                                 A1Ianta, GA 30334
                 E-MAIL:,___~--_ _- -__........__
                 FEI# or GA VNDR I[):,_......__--'                     I'

  line    Item           DescrIption . 	                                                UOM .     Brand & Model              Unit Price             NeedDaId
                          o 	 Preferably Ph.D.
                          • 	 Must be available dates listed
                          • 	 Experience w1th the Consumer's Guide for BValuating Core Reacting Programs
                          • 	 EXperience with valid and reliable a.seBsment8
                          o 	 Preferably knowledge of DIBBLB.ITBS. GORT IV; Yopp-Singer. PPVT, "WRH'l'-R,
                              Experience with syStem and 8chool baaed refoxm
                          o 	 Preferably Readin§!' Reform 

                             Bxperience with SBRR 

                          o Preference given to those who have       wor~      with the National Reading Panel. the National Institute
                         of Child Realth and Human Development in ,Reading Research. or the National Institute for Literacy
                          o Preferably experience reading and scoring federal grants especially Reading FirBt either for USBD
                         or other states


                          Honorium of $5,000 plus expenses at state per diem.

                          Chairperson'S Requirements (5-7)
                             Doctorate in Reading, Language Arts. Bducational Psychology. Linguistics. or Speech
                          o 	 Preferably research one facility
                          o 	 Background in Elementary Education
                          o 	 Preferably Ph.D.
                             Must be available dates listed
                             Experience with the Consumer's Guide for Evaluating Core Reading Programs
                             Experience with valid and reliable assessments
                          o 	 Preferably knowledge of DIBBLs, ITBS. GORT IV. Yopp-Singer. PPV'l'. " iiRMT-R.
                          • 	 Bxperience with system and school baaed reform
                          o 	 Preferably Reading Reform
                          • 	 Experience with BaRR
                          o Preference given to those who have worked with the Nat:LollBl Reading Panel, the National Institute
                         of Child Health and Human Development in ReilCUng Rsaearch. or the National lnat:Ltute for Literacy
                          o 	 Preferably experience reading and 8coring federal grants e8pecially Reading First


                         Honorium of $6.000 plus expenses at stilte per diem.
                          (Persons applying for chairperaon mUl!lt ind.icate whether or not they would be willing to participate
                         as a reader if not selected as a chairperson.)

                          Ta.lt, Readers and chairpersons will be asked to sublllit their vita and intent to participate prior
                         to deadline.   Bach applicant will also be asked to %ank their preference in reading grants between
                         urban, rural. or suburban applications.

                          Accepted participants will be contacted and contracted with through the Readtng First office in the

                              ",           e"                _.             . ....           t      t. J                I"
  This is NOT AN ORDER All retumed quotes and related documents must be idenUfied with our request for Quote Number.
 RETURN TO: 	                                              Request for Quotation
  Department of Education
• Reading                                                                         Request For Quote ID.      Date     Bid ClosIng DataITIme    Page
  Suite 1758, Twin Towers East                                                    414Q0.024.0000000         10l30l2003 11/1<W304:45:00         . 3
  205 Jessie Hill Jr. Drive SE 
                                                  Buyer                                           8uyerPhone
  Atlanta, GA 30334 
                                                             David L ChBders                                 404/657-2195

                   Vendor:   RFQ_B~NK                                               ShIp To: 	 Department of Education

                   ~:~E~SS-'---------"~'t~·~~·~·~1~'~'7-'         ,I
                                                                                              Reading
                                                                                              Suite 1758, Twin TOW8I1I East
                                                                                              205 Jessie Hi! Jr. Drive SE
                                                                                              AtIante, GA 303S4
                   E-MAIL:_ _ _......,........,.._........___-r-_
                   FEll or GA VNDR ID:,-~'.     ....--
                                               A,
                                                           ,
                                                         .... 	        . ?   .1


 I. ijlt, 	 Item             •      dJ."                i.


                          GAIlOB. Upon cClllpleUon of a contract the :readers will receive an electronic cagy of Georgia' a
                          Reading Pirat application, the ayat:etll and school aubgraQt applicationa along with the acoriDg
                          rubrics and rating foms. A separate bid proceas 1s taId.Dg .place to detcmaine the exact location
                          the grant reading will take place the in the Atlanta area.       on or before Janwu:y 16 the readers
                          will _Ued the applicationa that they will be r_dillS on a PC formatted CD. '11Ie nuiabers. _dera
                          w111 be asked to' read will vary depending on the preferem::e indicated by the reader's preferem::e and
                          the need accordiJjg to the grants submitted. Participants will be required to reed grants prior to
                          tbeir arrival on J~ 22. and acore grants as' an individual. They will tIleD meet as groups of 5
                          to come to a consenaus on the grant. Bach part:l.ciPilllt ",ill be reaponaible to completiDg an '
                          electronic Bcoring sheet for each grant reed and .returning the CD of grants mailed to them along
                          with the scodng aheets pdor to leaving the 1aa,t day.




   This is NOT AN ORDER All retumed quotes and related dOcuments must be identified wI1h our request for Quote Number.
Attachment C 

Chart B: Private Schools - Grant Introduction - LEA Application

  School Name     Grade    # Kids     ~
                                                             List the public school    Available Data·   % of Students    Applying   Funds Requested
                                                   -ci~
                  Levels    K-3      ID
                                     .eM         LOWQ)       that shares an           Test & GL Given:   Below on each   Yes or No      Year One
                                      U      I   ~
                                                   o• ..c:
                                                       0     attendance zone with                             GL
                                     ~~          ~ ~m        this school
                                     'I:t:          (/)1­




                                                                        .

                                                                                                           .
    --­    ._­               ----­      ---­        -­




                                       Georgia Department ofEducation, Kathy Cox, Superintendent of Schools                                       43
